<html>
<title> - WILL NIEHS' NEW PRIORITIES PROTECT PUBLIC HEALTH?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
           WILL NIEHS' NEW PRIORITIES PROTECT PUBLIC HEALTH? 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 25, 2007

                               __________

                           Serial No. 110-70

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-007 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
TOM LANTOS, California               DARRELL E. ISSA, California
ELIJAH E. CUMMINGS, Maryland         DAN BURTON, Indiana
DIANE E. WATSON, California          CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER S. MURPHY, Connecticut   JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
BRIAN HIGGINS, New York              BRIAN P. BILBRAY, California
BRUCE L. BRALEY, Iowa
                    Jaron R. Bourke, Staff Director

























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 25, 2007...............................     1
Statement of:
    Lucier, George W., former editor in chief of EHP, former 
      associate director of NTP; Lynn R. Goldman, professor, 
      Johns Hopkins University, Bloomberg School of Public 
      Health; Peggy M. Shepard, executive director, We Act for 
      Environmental Justice; and Stefani D. Hines, member, 
      National Advisory Environmental Health Sciences Council 
      [NAEHSC], environmental specialist, Albuquerque, University 
      of New Mexico..............................................    53
        Goldman, Lynn R..........................................    62
        Hines, Stefani D.........................................    79
        Lucier, George W.........................................    53
        Shepard, Peggy M.........................................    71
    Wilson, Samuel, Acting Director of the National Institute of 
      Environmental Health Sciences and the National Toxicology 
      Program....................................................    21
Letters, statements, etc., submitted for the record by:
    Goldman, Lynn R., professor, Johns Hopkins University, 
      Bloomberg School of Public Health, prepared statement of...    65
    Hines, Stefani D., member, National Advisory Environmental 
      Health Sciences Council [NAEHSC], environmental specialist, 
      Albuquerque, University of New Mexico, prepared statement 
      of.........................................................    81
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
    Letter dated November 19, 2007...............................    38
    Prepared statement of........................................     4
    Lucier, George W., former editor in chief of EHP, former 
      associate director of NTP, prepared statement of...........    56
    Shepard, Peggy M., executive director, We Act for 
      Environmental Justice, prepared statement of...............    74
    Wilson, Samuel, Acting Director of the National Institute of 
      Environmental Health Sciences and the National Toxicology 
      Program, prepared statement of.............................    24


           WILL NIEHS' NEW PRIORITIES PROTECT PUBLIC HEALTH?

                              ----------                              


                      TUESDAY, SEPTEMBER 25, 2007

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Tierney, Watson, and 
Issa.
    Staff present: Jaron R. Bourke, staff director; Jean Gosa, 
clerk; Vic Edgerton, senior legislative assistant, Office of 
Mr. Kucinich; Natalie Laber, press secretary, Office of Mr. 
Kucinich; Leneal Scott, information systems manager; Alex 
Cooper, minority professional staff member; and Larry Brady, 
minority senior investigator and policy advisor.
    Mr. Kucinich. Good afternoon. The committee will come to 
order.
    The Subcommittee on Domestic Policy of the Committee on 
Oversight and Government Reform will now come to order. Today's 
hearing will examine the National Institute of Environmental 
Health Sciences and whether or not it protects public health.
    Without objection, the Chair and the ranking minority 
member will have 5 minutes to make opening statements, followed 
by opening statements not to exceed 3 minutes by any other 
Member who arrives and seeks recognition.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    I want to bid a good afternoon to our ranking member, Mr. 
Issa. I appreciate your presence here today and to our 
witnesses attending and the audience.
    Soon after becoming the Director of NIEHS on April 4, 2005, 
Dr. David Schwartz set in motion a new set of research 
priorities for NIEHS, which he articulated throughout his 
tenure in forums like his Director's Perspective Columns in 
EHP, as well as the NIEHS 2006 to 2011 Strategic Plan.
    A primary goal was to shift significant resources toward 
research that was clinical in nature and which focused on 
discoveries that would contribute to treating or curing disease 
once a patient was already afflicted. There was also an effort 
to shift resources away from projects or programs that 
represented anything other than scientific research.
    The new plan was fairly well received in the scientific 
community. Legitimate environmental health research needs would 
be filled and innovative approaches would be embraced.
    Dr. Schwartz's own research was highly respected. His 
reputation as a top-notch scientist was translated into a 
strong research agenda which few would argue with, unless the 
consequences of implementing it were too great, unless the 
tradeoff was too costly. That is exactly the problem we are 
faced with today. NIEHS does not have unlimited resources, and 
Dr. Schwartz's new direction forced cuts in the traditional 
mission and role of NIEHS in researching and protecting public 
health.
    It should be noted that Dr. Schwartz is not a witness 
today. Dr. Schwartz departed from NIEH when it became known 
that an internal investigation was under way into significant 
charges against him for misconduct, conflict of interest, waste 
and mismanagement. This committee had opened an investigation 
into Dr. Schwartz's management practices months earlier, and 
several other congressional investigations were also in their 
beginning stages.
    Dr. Schwartz is officially on temporary leave, although I 
don't know if anyone seriously believes he will return as 
Director. The hearing today does not concern any alleged 
misconduct, and I want to use the word ``alleged'' misconduct, 
however important I believe it is to go into that. However, it 
will explore the programmatic direction and policy choices Dr. 
Schwartz made as Director and try to ascertain whether NIEHS' 
new management intends to sustain them in Dr. Schwartz's 
absence.
    The first question we will explore today is, at what cost 
has come Dr. Schwartz's new direction for the NIEHS? What are 
we losing by shifting resources toward new endeavors and in 
doing so targeting for reductions in other areas? Let me be 
clear that this is not just a funding question. Several 
management decisions have also reflected a devaluing of these 
key areas to restructuring and weakening leadership of certain 
initiatives.
    The second question is this: Should the new NIEHS research 
direction and priorities, as set out by Dr. Schwartz, continue?
    This subcommittee has performed its own analysis of the 
NIEHS' new research direction and priorities based on 
information provided by the NIH at our request and from 
information provided by informants and verified by staff. We 
have some documents up on the screen that will reflect that.
    We found the impact on public health to be significant, 
with tangible effects on people's health. As suspected, there 
were funding cuts to preventive research, to outreach and 
education and to long-term research. There was also a neglect 
to fill leadership positions or programs representing those 
interests like in EHP and NTP. There were efforts to change the 
direction of children's research by stacking a review panel. At 
the same time, there were several new initiatives, mostly 
clinical in nature, that were expensive by comparison.
    Today, we will hear from witnesses about the programs like 
community involvement, environmental justice, long-term 
research, children's health and information dissemination and 
education that have suffered. These are exactly the kinds of 
areas that are fundamental to public health.
    If we are to make the research translate into preventing 
disease, instead of trying to treat or cure it after it has 
already struck, we will need to involve the communities that 
are affected using proven techniques like community-based 
participatory research. We will need to make deliberate efforts 
to get the information out there, using world-class peer review 
journals like Environmental Health Perspectives.
    We will need to focus on populations that are most affected 
by chemicals and other hazards in our environment, like 
children and communities of color; and we will need to 
prioritize environmental hazards for regulatory action with 
programs like the National Toxicology Program.
    With relatively meager funding, NIEHS is viewed as one of 
the most credible sources in the world of impartial information 
about health hazards in our environment. NIEHS' work in the 
public interest is critical at a time when some malfeasant 
actors in the chemical industry or plastics industry have the 
funding to turn out their own pseudo-science, following in the 
footsteps of the tobacco industry. EHP alone is a pillar of 
truth. Consider the study released in January of this year 
showing that of all the studies looking for a possible 
relationship between mobile phone use and any health problem, 
those funded exclusively by the telecommunications industry 
were far less likely to find a link. You may also know the 
National Toxicology Program is a target for those trying to use 
procedural monkey wrenches to slow the listing of certain 
chemicals as a cause of cancer or birth defects, which had been 
made plain in an August report by OMB Watch.
    Another reason for the importance of NIEHS and its mission 
to prevent disease from occurring is that prevention is often 
far more cost-effective than treatment or cure. The reason is a 
significant failing of the market system: There is a little 
profit in prevention when compared to treatment. There is no 
race for the prevention of breast cancer, only for the cure. 
There are no public health professionals roaming hospital 
corridors pitching the latest techniques to reduce exposure to 
polybrominated diphenylethers [PBDEs], a flame-retardant 
chemical, to expectant mothers, in the same way there are drug 
industry reps selling the latest patent drug.
    Yet the reach of the NIEHS, given this financial 
disadvantage, is extraordinary. EHP is the No. 1 journal in its 
field and adjacent fields. Its Report on Carcinogens, the gold 
standard of chemicals that cause birth defects and cancer, is 
relied upon by State, Federal and international agencies whose 
mission is to help prevent exposure to toxic chemicals.
    We must keep in mind that the NIEHS is a world-renowned 
agency which built its reputation on the excellent preventive 
and public health work it does. While the agency has not 
abandoned that authority, it has made significant first steps 
in that direction.
    I want to thank the witnesses who have taken time out of 
their busy schedules and important work they do in protecting 
public health to explore this topic. I will note that each of 
them works with many others who also contribute every day to 
this noble cause. I thank each of them for their work as well.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kucinich. At this time, the Chair will recognize the 
ranking member, distinguished gentleman from California, Mr. 
Issa.
    Mr. Issa. Thank you, Mr. Chairman, and thank you for many 
of your opening remarks.
    As the witnesses, I am sure, are aware, here on Capitol 
Hill often you see a chairman and a ranking member as two 
bookends in their opening statements. Not so here today. 
Although the chairman and I may disagree on some issues related 
to other subjects, when it comes to the basic oversight and 
reform obligations of this committee and this hearing today, no 
two people could be closer together.
    The fact is that Congress relies heavily on NIEHS' ability 
to do its fundamental job; and a direction change, although 
well-intended, appears to have done two things: reduced its 
ability to do core missions, which as of yet Congress has not 
seen fit, nor have other Federal agencies, to buy in wholesale 
for those to be abandoned. Second, when a reorganization occurs 
in any organization and it causes significant internal 
disruptions, by definition we in Congress feel that we need to 
ask questions about effectiveness, about whether or not those 
disruptions are because a new leader is challenging an 
entrenched bureaucracy, looking for inefficiencies, looking for 
opportunities to do government's job better, or, in fact, 
simply trying to make a name for themselves in a community in 
which reputation has often to do with the number of people 
supervised and number of reorganizations done.
    Today I look forward to this hearing because I believe both 
in our role as oversight, finding out why there is so much 
turmoil, and reform, finding out whether or not there are 
legitimate areas in which new technologies would allow for an 
effective use of basic clinical science, rather than the 
traditional roles that have been enjoyed and, if so, what they 
are and, if so, how should we best fund them.
    The chairman and I have worked together on a number of 
issues. This one probably more than any is one in which we must 
work out an effective message after this hearing and perhaps 
follow-on hearings to ensure that this organization right-sizes 
itself and finds itself on a path toward working to at least 
accomplish its traditional goals and, if money and efficiencies 
can be found, to find additional.
    I do have just two small points of dissension, and they are 
limited. Maybe it's in agreement.
    The chairman commented that the Director was not here 
today. Since the Director, Director Schwartz, is, in fact, only 
on a temporary leave of absence, I would hope that if there is 
a followup hearing that we insist that somebody who has stepped 
down temporarily and is still at least partially covered by 
Federal benefits would be available here today.
    That's certainly not to limit your presence or importance, 
Dr. Wilson.
    Second, perhaps to chastise just a little publicly that 
these opening statements and witness testimony are valuable. I 
really had wished that we had had at least the minimum 24 hours 
that the committee requires in order to get those statements 
analyzed by staff. We will try to do the best we can, having 
gone through them just today. If we ask questions that are not 
fully fact checked or appear to perhaps be asking questions 
that seem beneath congressional standard, it's because we only 
received them well after close of business last night.
    Mr. Chairman, once again, I thank you for holding this 
hearing. Once again, I believe we have found a good bipartisan 
issue to work on.
    I yield back.
    Mr. Kucinich. I want to thank the gentleman from California 
and associate myself with the concerns that you expressed about 
the necessity of the subcommittee being able to do its work and 
have staff evaluate these statements that come in. We will do 
the best we can with the information that you provided us.
    At this point, I would like to recognize the representative 
from Massachusetts, Mr. Tierney, for the purpose of an opening 
statement.
    Mr. Tierney. Thank you, Mr. Chairman.
    I really have no opening statement to add here. I really 
came to listen and learn.
    I want to thank you and the ranking member for picking this 
particular subject. I think it has importance to all of us. I 
am anxious to hear what the witnesses have to present.
    Mr. Kucinich. I thank the gentleman from Massachusetts.
    Does the gentlelady from California have any opening 
statements at all.
    Ms. Watson. I do, if you will give me a second.
    Mr. Kucinich. Sure, just take your time.
    Ms. Watson. I want to thank you, Mr. Chairman. As usual, 
you are right on time on holding this important hearing with 
protecting public health.
    When I was a State Senator in California, I served as the 
Chair of Health and Human Services for 17 years, so public 
health is an issue that is near and dear to my heart.
    There are several issues that arise when we discuss the 
direction of the National Institute of Environmental Health 
Sciences. The first issue that stands at the forefront is the 
cuts to the Children's Environmental Health Centers.
    In my district, in Los Angeles and Hollywood, there is a 
joint USC and UCLA Children's Environmental Health Center. 
Since 1998, this children's center has been investigating the 
effects of the environment on children's respiratory health.
    The center's projects have yielded important information 
about the effects of air pollution on children. For example, 
CEHC has reported there has been substantial progress in 
understanding the effects of ambient air pollutants and 
environmental tobacco smoke on children's respiratory health, 
and researchers have identified characteristics that increase 
the susceptibility of children. This contributes to a growing 
consensus that current levels of combustion-related air 
pollutants are more detrimental to children's airways than 
previously thought.
    With significant progress and research on the effects of 
the environment on children, I am somewhat disturbed to find 
out that the funding for children's centers has been cut by 
nearly $900,000.
    The other issue that I have with NIEHS is the change of 
focus from research that was preventive in nature to a more 
clinical base.
    I believe that when we talk about Homeland Security we are 
talking about protecting the children and the people on the 
land and not just the infrastructure. Finding preventive 
measures to catastrophic illnesses should continue to be the 
main focus of NIEHS and not entirely devoted to treatment and 
incurring preventable conditions.
    My last concern is Dr. David Schwartz, the former Director 
of NIEHS, who is not here to answer questions about alleged 
mismanagement and corruption. Mr. Chairman, I hope that we can 
call on Dr. Schwartz to appear before this committee to answer 
the questions about these allegations at a subsequent hearing. 
I know you will see that he is made available.
    Thank you so much. I yield back.
    Mr. Kucinich. I thank the gentlelady. I want the gentlelady 
to know that the ranking member, Mr. Issa, voiced the same 
concerns that you did. So this committee is united in its 
intentions.
    Ms. Watson. See, he is a Californian.
    Mr. Kucinich. I just want to thank both Members for 
focusing on that.
    At this time, I would like to introduce our panelist.
    Dr. Samuel Wilson is the Acting Director of the National 
Institute of Environmental Health Sciences. Dr. Wilson joined 
the NIEHS in his present capacity in 1996. He has fostered 
basic medical research and disease prevention research during 
his tenure. He was instrumental in helping develop the NIEHS' 
programs in genetic susceptibility, functional gnomics, 
children's health research and minority institutions research 
and community outreach.
    Dr. Wilson has also strengthened partnerships between the 
NIEHS and other Federal agencies concerned with environmental 
health. He received his training in medicine and biochemistry 
at Harvard Medical School and began his research at the NIH in 
1970.
    In 1991, he moved to the extramural community to found a 
center focused in the areas of genetic toxicology and 
structural biology. An active researcher, Dr. Wilson is the 
principal investigator of the DNA Repair and Nucleic Acid 
Enzymology Group in the Laboratory of Structural Biology at the 
NIEHS. He has authored more than 300 research articles.
    Doctor, it is the policy of the Committee on Oversight and 
Government Reform, to swear in all witnesses before they 
testify. I would ask that you please rise and raise your right 
hand.
    [Witness sworn.]
    Mr. Kucinich. Let the record reflect that the witness 
answered in the affirmative.
    I ask the Doctor to give a brief summary of his testimony 
and to keep this summary, if you can, under 5 minutes in 
duration. I want you to know, Doctor, that your complete 
statement will be included in the hearing record.
    The Chair recognizes Dr. Wilson.

  STATEMENT OF SAMUEL WILSON, ACTING DIRECTOR OF THE NATIONAL 
  INSTITUTE OF ENVIRONMENTAL HEALTH SCIENCES AND THE NATIONAL 
                       TOXICOLOGY PROGRAM

    Mr. Wilson. Thank you, Mr. Chairman.
    Good afternoon. My name is Sam Wilson. At the chairman 
said, I am the Acting Director of the National Institute of 
Environmental Health Sciences and the National Toxicology 
Program. I have long served the interests of the environmental 
health sciences as a researcher, as director of a center in the 
extramural community and as the Deputy Director of the NIEHS 
and National Toxicology Program since 1996.
    Dr. Zerhouni asked me to represent NIH today and respond to 
your questions because Congress has mandated that each 
Institute and Center comprising the NIH receive direct 
appropriations, make independent decisions on use of resources, 
conduct independent strategic planning, and work with its own 
National Advisory Council. In other words, in terms of 
allocation of research resources of NIEHS, the buck literally 
stops here at my desk.
    Mr. Chairman, you have expressed concerns that NIEHS is 
shifting research away from prevention toward clinical 
approaches to research. I want to state categorically that 
prevention is a priority of my own and, indeed, all of the NIH. 
Prevention is a cornerstone of NIH's research strategy. All 
institutes and centers, especially NIEHS, support medical 
research that prevents the problem, rather than research that 
merely addresses acute symptoms or end-stage disease.
    Now, the mission of the NIEHS is to support research to 
define the role of environmental agents in the initiation and 
progression of human disease. The goal is to use knowledge from 
this research to reduce adverse exposures and, thus, reduce 
preventable diseases and conditions. Our understanding of how 
the environment operates at the molecular level can also 
provide insights on interventions and early markers for 
disease. Thus, the NIEHS research is targeted to the ``front 
end'' of disease, or disease etiology, and prevention.
    The final impact of our research effort, the reduction of 
human disease and suffering, relies on the efforts of many, 
including scientists from a variety of scientific disciplines, 
community groups, policymakers, both within Congress and the 
administration, along with regulatory agencies throughout the 
world.
    The chart that you see on the screen illustrates this broad 
spectrum of research translation from fundamental findings in 
molecular toxicology over here on the left-hand side all the 
way to the right-hand side of disease, impact, prevention and 
economic benefit.
    Now, all of the components in the continuum that you see 
here in this rainbow, if you will, are necessary to the 
efficient transfer of knowledge from fundamental research in 
molecular toxicology to disease impact, prevention and economic 
benefit. Our success is highly dependent on public education, 
as you can see in one sector of the chart here, and also the 
involvement of community groups.
    In the last section of the chart, you can see the 
importance of formulation of public policy toward the direct 
application of our research findings.
    Also on the chart you see the national toxicology program 
listed here. This program is one of the crown jewels of the 
Institute and works on hazard assessment research conducted 
within the mission of the medical toxicology program.
    Every disease has an environmental component. Thus, NIEHS's 
responsibilities span all human disease, rather than following 
the model of focus on a specific disease or organ system. This 
broad spectrum presents challenges, since the public health 
message of NIEHS must be broad.
    Yet the fact is that environmental problems are often local 
or regional and often complex and often involve involuntary 
exposures. Such problems engender very passionate responses, 
both from local communities and the private sector. This 
multiplicity of stakeholders, as well as the competing economic 
risks and benefits of our findings, presents NIH with 
challenging pressures. We have addressed these competing 
demands by ensuring that stakeholders are included in critical 
decisions, by providing exhaustive peer review and opportunity 
for public comment, and by developing innovative approaches by 
which our research can be relevant to local conditions and 
needs.
    A particular source of pride for me are the novel ways in 
which NIEHS has sought to recruit the insights of local 
communities in their research and in the dissemination of 
research findings. This early inclusion of community groups, in 
addition to academic medical researchers, has been a particular 
strength of the NIEHS.
    When I joined the NIEHS in 1996, we began to move the 
Institute's research toward a sharper focus on disease 
prevention, as well as investigating new ways in which local 
communities could be more directly involved in the research.
    At that time, the Institute had already included the 
community outreach and education programs in each of its NIEHS 
Centers of Excellence, and these programs were subsequently 
reinforced. Working with the Environmental Protection Agency, I 
helped establish a new children's center program, among other 
programs. All of these programs are designed to accelerate the 
discovery of environmental triggers in disease and to include 
community groups as partners in the research.
    I was personally involved in strengthening the community 
outreach programs by identifying and communicating best 
practices in individual centers and in ensuring that the 
centers received extra support for their community outreach 
efforts and instituting a system where these programs could be 
evaluated for success in community involvement and education.
    Seeing the success of these endeavors convinced me that 
community based approaches have a very important role to play 
in the environmental health research enterprise. I was an 
advocate in developing the NIEHS community based participatory 
research programs and traveled and spoke extensively to gain 
the necessary consensus and support for this concept.
    As you can imagine, managing an enterprise as diverse and 
as important as that of NIEHS requires balancing multiple needs 
and demands. Thus, we are constantly seeking advice from the 
research community, from a broad spectrum of community groups, 
and we are open to new approaches not only in laboratory 
technologies but also in managing the direction of the 
environmental health research we support. Because science and 
technology have changed markedly in recent years, we must be 
aware of new opportunities in science and incorporate them into 
our research.
    We are looking at how emerging technologies can be used to 
enhance prevention strategies. For example, in the Exposure 
Biology Program, which is part of the gene's environment and 
health initiative, we are developing new genetic tools that 
will predict risk of disease, along with small monitoring 
devices that will generate a profile of an individual's 
environmental exposures.
    As we develop new programs, the evaluation of these 
programs must be an ongoing process at NIEHS. We have recently 
evaluated the children's centers. We intend to continue to 
continue to support these centers, at least at their previous 
level of support or higher.
    We also intend to support community based participatory 
research. A similar program in environmental justice is still 
undergoing review. However, it is my intent that the NIEHS will 
continue to support environmental justice research.
    Finally, I know that the subcommittee has a strong interest 
in our journal, Environmental Health Perspectives. In June of 
this year, NIEHS convened a roundtable discussion on EHP with 
the community, including a number of investigative journalists. 
At that time, we expressed--I expressed, our full support for 
the journal. We are committed to restoring any cuts to the 
journal, including the Chinese edition and the school edition. 
I can assure you that the interest of the EHP will be fully 
represented and supported in the fiscal year 2008 budget.
    Now, in closing, NIEHS has a role to play in improving the 
health of our Nation's citizens. Our research has particular 
importance because it typically addresses those areas where we 
can prevent disease and intervene very early in disease 
development. Thus, we have the ability to provide the Nation 
with strategies that not only improve health but can greatly 
reduce health cost.
    Such is the power of environmental health research. The 
full benefit, however, can best be realized when environmental 
health researchers are part of a team that includes community 
groups and Congress and other Federal and State agencies. We 
all have a stake in NIEHS, and we all share as partners in the 
environmental health research enterprise. It is this relevance 
to the NIEHS in our everyday lives that motivates me, and it's 
why I feel privileged to be here today.
    Thank you very much for this opportunity to appear today 
and provide this statement. I shall be happy to answer any of 
your questions.
    Mr. Kucinich. I want to thank the gentleman.
    [The prepared statement of Mr. Wilson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I want to note for the sake of the Members 
who are curious as to why I didn't call Dr. Wilson's time, and 
mostly those who are in the audience, this committee has a rule 
that all witnesses are given 5 minutes. The good doctor has 
been given 11 minutes, which is double the time that any 
witness who has come before this committee has been given.
    Let me explain to the Members why, and I want members of 
this committee to know, because this matter is of the utmost 
importance. Dr. Wilson has a high level of responsibility, and 
this committee will hold him to a high level of accountability 
in the questioning. So, because we are going to proceed in that 
way, I felt it was a prudent approach to make sure that the 
doctor had ample time to be able to make his presentation 
without interruption.
    I would like to proceed with the first round of questions 
here, and I want to begin by letting Dr. Wilson know that I am 
glad to hear that he is going to fully restore environmental 
health perspectives.
    I want to ask you, do you support restoring funding for the 
children's centers?
    Mr. Wilson. Yes, I do. I think the funding for the 
children's centers has actually been relatively stable.
    Mr. Kucinich. Does that mean full restoration, Dr. Wilson?
    Mr. Wilson. Yes.
    Mr. Kucinich. When I ask ``full restoration,'' please be 
definitive as to what that means to you.
    Mr. Wilson. Well, it means that we started the children's 
centers with 12 individual centers around the country, and the 
amount of investment was approximately $7 to $8 million at that 
time, and full restoration of the program would be consistent 
with that initial investment. We think the program is very 
successful, and it is an example of this partnership between 
academic medical researchers and community groups working 
together to address important problems.
    Mr. Kucinich. Doctor, do you support restoring the program 
that has been eliminated entirely, which you said you helped 
create, called the Community Based Participatory Research 
Environmental Health Program? Is that a yes?
    Mr. Wilson. Yes.
    Mr. Kucinich. What about the Centers for Population Health 
and Health Disparities?
    Mr. Wilson. Yes, I support that program.
    Mr. Kucinich. The environmental health sciences as an 
integrative context for learning, K-12 program?
    Mr. Wilson. Uh-huh.
    Mr. Kucinich. Now, when we talk about this, would you be 
prepared to elucidate? Are you talking about full restoration? 
Are you talking about restoration in name only, so that you can 
say there is a program? Or are you talking about really having 
these programs solid, fully restored, up and running? How would 
you respond? What would you respond?
    Mr. Wilson. I fully support these programs and believe that 
they are incredibly effective in terms of the successful 
pursuit of environmental health sciences research.
    One thing I would like to add is we are continuing the 
programs that have recently been discontinued and other 
mechanisms in our portfolio. So we believe that this research 
approach is absolutely fundamental and needs to be continued in 
the interest of successful programs.
    But, in some cases, the way that we initiated or sparked 
research in this field has now matured to the point where it's 
appropriate to expect to support the research through other 
mechanisms. So the overall commitment to community based 
participatory research is absolutely solid and fundamental. The 
mechanisms that we use to achieve this end point, however, need 
to be broader than the individual dedicated program that we 
have previously funded.
    Mr. Kucinich. Let's talk about environmental justice, 
partnerships for communication to pre-Dr. Schwartz levels. What 
about that? Do you support restoring that?
    Mr. Wilson. Yes, I do.
    Mr. Kucinich. Fully?
    Mr. Wilson. Fully, yes.
    Mr. Kucinich. So you would hold it harmless from further 
cuts?
    Mr. Wilson. Yes.
    Mr. Kucinich. I want to read you a quote from a very high-
ranking person within the NIEHS who is working with others to 
put together a search committee that would hire a new editor in 
chief for environmental health perspectives. I think it 
summarizes in many ways my concern with the NIH's direction 
under Dr. Schwartz, who, by the way, had rhetoric that was 
quite impressive. There was always a concern about his actions 
being consistent with the rhetoric. So let's get into this. 
``It would be nice if a candidate actually worked in our field, 
or can at least consistently spell `environmental' correctly, 
but it is more important that they know neuroscience broadly, 
represent the field and know how journals really work.''
    That's a direct quote. In other words, this quote seems to 
put a priority on medical clinical research over environmental 
and public health, kind of focus on the lab, Petri dish 
research, as opposed to the studies of large populations for 
links between chemicals and health problems. What's your 
perspective on that?
    Mr. Wilson. Well, I don't support that statement, first of 
all. I think the role of the editorship of EHP is an absolutely 
critical appointment for the Institute in these next several 
weeks, hopefully. I think the overall----
    Mr. Kucinich. So the candidate will not only be able to 
spell ``environmental'' correctly, but will also be able to 
spell ``public health'' correctly.
    Mr. Wilson. Yes, but to see public health and the 
importance of the concept of public health, which is a concept 
that I am very much committed to.
    I think an individual who can represent this type of 
interest and enhance the news section of the journal, plus the 
broader audience for the journal, to advance the field of 
public health is fundamental. I am hoping that we can identify 
an individual of this type. We are in the middle of the search 
process at the present time and have finalists identified but 
haven't yet made a choice.
    Mr. Kucinich. Thank you, Doctor.
    My 5 minutes is expired. I recognize the ranking member, 
Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. Eleven minutes would 
have been fine with me. It's not a problem.
    Doctor, I will pick up where the chairman left off with a 
question. Since it's a matter of public record, but I don't 
have it in front of me, what did the previous editor get paid? 
Or, if you can, what range are you looking at for the 
replacement? I just wanted to understand whether spelling comes 
at a price and what that price is.
    Mr. Wilson. Yes, I don't have that number in my mind at the 
moment.
    Mr. Issa. North of $200,000?
    Mr. Wilson. No, no, no.
    Mr. Issa. South of $200,000.
    Mr. Wilson. It was way south of $200,000, something in the 
range of $120- to $130,000 would be my assessment of it.
    Mr. Issa. I ask that because one of the challenges that you 
have faced and you are facing right now is there have been two 
attempts to privatize EHP. I would like your thoughts on that. 
And, quite frankly, one of my reasons for asking that question 
is a premier, believable, open, transparent, and trustable 
magazine probably should pay more than $120,000 to get the best 
and the brightest.
    So what I am asking, one, what do you think about 
privatization? And, if not, two, if you are not able to get 
privatization, will you recruit the best and the brightest for 
this within the confines of private pay?
    Mr. Wilson. Well, I don't support privatization. I have 
indicated that on the record at the council meeting for the 
Institute in May and in other settings.
    I am concerned about this level of salary that we have 
competed this position for. The reason for competing it in the 
Title 5 GS scale was that the appointment was consistent with 
the previous individual who occupied the position. We were 
hoping that we would be able to have a timely appointment by 
using this mechanism, although I do share the concerns; and I 
will take a very careful look at these final recommendations by 
the search committee and by the selecting official in the case 
of how the search plays out.
    Mr. Issa. If you don't mind elaborating a little bit more, 
because it appears as though Dr. Schwartz, it was his 
instigation for this privatization. Can you characterize, and I 
don't want you to go beyond what you think is fair, but why? 
Why do you think this was a priority?
    Mr. Wilson. Well, I think Dr. Schwartz had a view that the 
journal could possibly be more successfully operated in the 
private sector, that the editorship could be more academic in 
its orientation, and that the typical practices for publication 
of a journal of this type in the private sector could also 
benefit the EHP.
    I think a secondary factor in his view was the cost of the 
EHP, the opportunity of maintaining involvement for the 
Institute and influence over the journal and then, at the same 
time, having it published in the private sector seemed to be a 
reasonable opportunity to evaluate.
    So I think those were the two main forces driving this 
idea.
    Mr. Issa. It does appear as though you have to be on both 
sides of this. On the one hand, you would like to get more 
dollars for the structure. On the other hand, there isn't.
    This privatization--and I want to followup just a little 
bit more--was more of a public-private scheme, if I understand 
correctly, because you did want to own and yet not operate, 
allow it to ``float up.'' Was there any merit to that under 
your tenure that you would explore to see if you couldn't get a 
hybrid, one might say, like the post office, which is clearly 
not private but has a level of autonomy?
    Mr. Wilson. Yes, you are right. It was in one stage of the 
planning conceived as a partnership between NIEHS and a private 
organization. At another stage of the analysis, it was 
conceived as a completely private activity, but at the same 
time the Institute would have some linkage in the editorial 
process or in the board.
    But my view is that the journal really is best served by 
being published at the Institute. The reason for that is the 
broad public health orientation of the journal and the 
opportunity to include very, very high-quality information on 
what it means to conduct these experiments that we are 
conducting in our research side of the portfolio, what it means 
with regard to public health and to the actual daily lives of 
individuals around the world and here in our country.
    Mr. Issa. I appreciate that.
    I will try to close very quickly. You mention in your 
opening statement about the Chinese. That's a printed Chinese 
language version?
    Mr. Wilson. Yes. Yes, it is.
    Mr. Issa. It's circulated primarily where?
    Mr. Wilson. In China, primarily.
    Mr. Issa. OK, so it's an export.
    I will just anecdotally say, quite frankly, they can print 
cheaper in China. I might ask whether helping China by 
delivering information, and even potentially participating and 
making sure the translation is correct, might actually be one 
of the cuts you say you don't want to do that I might question 
here from the dais, that perhaps the burden of anything other 
than making the copyrighted material available and a 
partnership for translation, the balance of it might reasonably 
be picked up by a Chinese entity. That's why I asked.
    I would ask you for the record, because we have run out of 
time, you said what you wouldn't cut, for the chairman. I would 
appreciate, assuming no efficiencies--because we all know that 
efficiencies are mythological sometimes. We know that they 
exist, but we never see them. Give us those items which you 
would cut or which you intend to cut or at least those which 
you are considering in order to balance a set of books while 
not cutting some very important programs, including the 
gentlelady from California's questions on the children's 
centers.
    With that, I yield back and thank the chairman.
    Mr. Kucinich. If the gentleman will respond briefly.
    Mr. Wilson. Yes, I think the programs that we have funded 
over the years, especially during the NIH doubling, that 
represent capacity building in the area of gnomics and various 
other areas are areas that we could look at for cutting. So in 
this broad category of capacity building types of investments.
    Mr. Kucinich. I thank the gentleman.
    The Chair recognizes the gentlelady from California, Ms. 
Watson.
    Ms. Watson. Just very quickly, Mr. Chairman.
    I understand that Dr. Schwartz had convened a panel to 
review the effectiveness of the centers. One of the panelists 
wrote a letter to him, and he felt that the panel was skewed. 
Let me just read very quickly, and then you can answer as we 
flee to the floor to vote. Sorry.
    A fundamental problem is that the review panel was highly 
skewed in its composition. Despite its avowed focus on 
children's help, the panel did not contain a single 
pediatrician; and the panel contained an abundance of very 
senior, highly accomplished laboratory scientists who have 
studied gnomics and epigenetics and the developmental impacts 
of environmental toxins in experimental settings.
    Given this make-up, it is perhaps not surprising that the 
panel chose to devaluate child-centered epidemiologic studies 
and to devalue the primary prevention of environmental 
diseases.
    Would you agree that the composition was unbalanced?
    Mr. Wilson. Yes, I would.
    Ms. Watson. How do we then correct that? I think you have 
been alluding to what you would like to do.
    Mr. Wilson. Yes. But let me also point out that the 
committee, even though not fully balanced, produced an 
outstanding report, and the report was very strongly supportive 
of the children's centers. As I said in my earlier comments, I 
was gratified to see that and view the report as a strong 
endorsement of the children's centers.
    Ms. Watson. So what will the focus--under your direction, 
what will the focus be of these children's centers?
    Mr. Wilson. Well, in the initial stage of the centers, we 
first funded eight, and those were focused fairly specifically 
on childhood asthma. Then we funded, in that first phase, four 
additional centers; and these were focused on other topics, 
including autism and various kinds of neurological development 
problems.
    My view is that the structure of the center, for having a 
partnership between community groups and academic groups, 
should continue. That is, in each of the centers the structure 
is this mix of community groups actually working on problems 
with the academic researchers. So I think that structure is 
very, very powerful and should continue.
    Now, in terms of the topic areas, whether it's asthma or 
development or some type of other metabolic problem, I see that 
question as being defined by the community, the children's 
health research community not originally focused on the topic 
of asthma, as the original program was heavily focused.
    Ms. Watson. Originally, I think the studies were to be on 
exposure assessment?
    Mr. Wilson. Yes, of course.
    Ms. Watson. I understand that funds had been cut out of 
that focus, and it has abandoned its commitment to the study by 
zeroing out the funding for the study in 2007. Do you plan to 
continue that?
    Mr. Wilson. No, because in the environmental health 
sciences we have to have exposure science in order to study the 
front end of disease, so the exposure information is absolutely 
fundamental in all of our centers. So you really can't do 
environmental health sciences research supported by our 
Institute without taking into account the exposures.
    Ms. Watson. Thank you.
    Mr. Kucinich. I thank the gentlelady.
    This committee will be in recess until 3:30, where we will 
reconvene.
    Mr. Tierney, do you have any questions of this witness?
    Mr. Tierney. No, I will waive my questions to the witness. 
I am sure he would like to move along.
    Mr. Kucinich. What I would like Dr. Wilson to know is that 
the committee will have followup questions which we will submit 
to you in writing and ask you to respond to those questions in 
writing and continue the cooperation which you have shown here 
today and to ask all of the witnesses to be back here by 3:30--
let's make it 3:25, in the interest of conserving time. Be back 
by 3:25. We will do the best we can to start at that time.
    The committee stands in recess.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Recess.]
    Mr. Kucinich. The committee will come to order. There was a 
vote call on the way back here, and so we're mindful of Dr. 
Lucier's time constraints. And what we're going to do is this: 
I'm going to ask the witnesses to be sworn. I will go to Dr. 
Lucier so he can get his statement in the record, and then we 
will discharge him as a witness, provided he's open to some 
written questions from the committee, and then we will continue 
with the testimony of the other witnesses.
    I'm going to ask all the witnesses if they would please 
stand. It is the custom and purpose of this committee to make 
sure the witnesses are sworn. I would ask that you raise your 
right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that the witnesses 
have answered in the affirmative.
    Dr. Lucier has a very extensive background, which we will 
submit for the record, but in the interest of facilitating his 
schedule, I'm going to go to him for testimony right now.
    You may proceed, Doctor. And please pull that mic up close 
to you so we can hear you.
    Mr. Lucier. Thank you, Chairman Kucinich.
    Mr. Issa. See if the green light is on.
    Mr. Kucinich. Would staff assist Dr. Lucier in making sure 
that he can get his testimony in the record?
    I want to thank all of you for waiting.
    Please proceed.

STATEMENTS OF GEORGE W. LUCIER, FORMER EDITOR IN CHIEF OF EHP, 
 FORMER ASSOCIATE DIRECTOR OF NTP; LYNN R. GOLDMAN, PROFESSOR, 
 JOHNS HOPKINS UNIVERSITY, BLOOMBERG SCHOOL OF PUBLIC HEALTH; 
PEGGY M. SHEPARD, EXECUTIVE DIRECTOR, WE ACT FOR ENVIRONMENTAL 
   JUSTICE; AND STEFANI D. HINES, MEMBER, NATIONAL ADVISORY 
 ENVIRONMENTAL HEALTH SCIENCES COUNCIL [NAEHSC], ENVIRONMENTAL 
       SPECIALIST, ALBUQUERQUE, UNIVERSITY OF NEW MEXICO

                 STATEMENT OF GEORGE W. LUCIER

    Mr. Lucier. Thank you, Chairman Kucinich, and thank you, 
Chairman Issa. It is certainly an honor for me to testify here 
today about my views on NIEHS' support of environmental 
perspectives in the National Toxicology Program. I worked at 
NIEHS for 30 years, and when I left, when I retired in 2000, I 
was Associate Director of the NTP and coeditor of Environmental 
Health Perspectives, a position that I had held for 28 years.
    First let me begin by making some comments on EHP. In 2005, 
when Dr. Schwartz came to NIEHS, EHP was considered the leading 
environmental health journal in the world. Its impacts by all 
measures were steadily increasing, while at the same time costs 
were decreasing. Dr. Schwartz, in a puzzling series of moves, 
attempted to dismantle the EHP under the false guise of saving 
money.
    Here are some relevant facts from my perspective. EHP is 
comprised of several sections, articles, science articles, 
news, the student edition, international editions, Chinese, 
Spanish editions. Each has important readership, and each has 
an important impact. Dr. Schwartz attempted to cut or eliminate 
all but the science articles.
    The impact factor, scientific impact factor, in the last 5 
years has nearly doubled. The mentions of EHP articles in the 
lay press has increased from one per day to six per day. The 
last 3 months the Web site was visited by 305,000 individuals 
from 207 countries. At the same time, the cost was decreasing. 
The proportion of the NIH budget taken by EHP was 0.67 percent 
in 2001; it was 0.46 percent in 2005, a 50 percent decrease.
    There has been a significant loss of senior staff. In 2001, 
EHP had an editor in chief, two science editors and a news 
editor. Today there is an interim editor on a part-time basis, 
no science editor, and the news editor has been detailed to the 
Director's office for the last 9 months. It is amazing the 
journal still comes out and is as good as it is.
    I have a series of recommendations for you and the NIEHS, 
and Dr. Wilson has addressed many of these. Restore the EHP 
budget to 2005 levels. Restore the staffing levels. Fully fund 
the news section. Fund the Chinese and Spanish editions. 
Restore the student edition. Establish a budget process for EHP 
that is consistent with its important role in the NIEHS; don't 
treat it as a second-class citizen.
    Let me now make some comments regarding the National 
Toxicology Program. This program was established by Congress in 
1978 as an interagency effort to provide toxicological 
evaluations on substances of public health concern. It is not a 
regulatory agency or program, but it does provide key 
scientific information for those who must make regulatory 
decisions. It has a primary role in disease prevention by 
identifying hazards in the environment and in the workplace, in 
the home that may cause toxicity, and by characterizing those 
toxicities. We have to remember that a positive epidemiology or 
clinical finding really is a failure of public health policy.
    Over its 29 years of existence, NTP has been considered the 
world's leading and most comprehensive toxicology research and 
testing program. Many programs are still doing well in the NTP, 
but there are several problems.
    Dr. Schwartz seemed to view his dual role as NTP/NIEHS 
Director as an annoying inconvenience. NTP needs a Director who 
is willing and wants to be enthusiastic about NTP and its 
important mission in public health.
    Two, Dr. Schwartz appeared to have a lackluster commitment 
to the interagency activities of the NTP, and this is critical 
for its success. He appeared to prefer a go-it-alone approach.
    Regarding the budget, it is hard to get a handle on the NTP 
budget, but it does seem as a proportion of the NIH budget it 
is going down. I recommend that the NTP budget be explicitly 
identified by Congress. Right now it's not discernible as a 
separate budget entity. And the fact that the budget seems to 
be decreasing shows up in the productivity of the NTP.
    In 2005, 10 substances were begun for testing in the 2-year 
bioassay. In 2007, that had been diminished to four. Currently 
there's no studies being initiated for reproductive and 
developmental toxicity, and no study is being initiated for 
neurological toxicity.
    Clearly this has to stop, and it doesn't appear to me at 
this point in time, even though there's some mechanism-based 
toxicology initiatives, that there has been a compensatory 
increase in toxicological evaluations being done through 
mechanistic toxicology approaches.
    And the last point is that there are a lot of vacancies in 
key staff. It is important that the NTP and the NIEHS recruit 
top-notch people to fill those vacancies, because you can't run 
a top-notch program without top-notch people.
    So with that, let me conclude my oral testimony. The 
details are found to a greater extent in my written testimony.
    I apologize for having to go, but I'm in my new life. I am 
an elected official. I'm a Chatham County commissioner in North 
Carolina, and we are holding an important public hearing 
tonight on zoning a part of the county that has not been zoned 
previously, so you could expect that my constituents might not 
be happy if I didn't show up. So I apologize for running out 
the door, but thank you for giving me this opportunity.
    [The prepared statement of Mr. Lucier follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. We completely understand. We thank you for 
testifying. You are dismissed as a witness, but you are greatly 
appreciated for your presence here. Thank you.
    Mr. Lucier. Thank you. And I look forward to your questions 
and will respond promptly with answers.
    Mr. Issa. I also want to thank you, Doctor. Like all county 
commissioners, I know that you are not going to allow too much 
packing of density within the county within this new zoning. We 
trust you to protect the Carolinas.
    Thank you, Chairman.
    Mr. Lucier. I will do my best, Congressman.
    Mr. Issa. I am just lobbying for a beautiful place in a 
beautiful State.
    Mr. Kucinich. Thank you.
    Dr. Lynn Goldman is a pediatrician and professor at the 
Johns Hopkins University Bloomberg School of Public Health 
where she specializes in environmental health policy, public 
health practice and children's environmental health. She was 
appointed and confirmed in 1993 to be the Assistant 
Administrator for the Environmental Protection Agency's Office 
of Prevention, Pesticides and Toxic Substances where she was 
responsible for the Nation's pesticide, toxic substances and 
pollution prevention laws.
    Dr. Goldman has conducted public health investigations on 
pesticides, childhood lead poisoning and other environmental 
hazards. Dr. Goldman has served on numerous boards and expert 
committees, including the Committee on Environmental Health for 
the American Academy for Pediatrics, the Centers for Disease 
Control Lead Poisoning Prevention Advisory Committee, and 
numerous expert committees for the National Research Council. 
She is currently vice chair of the Institute of Medicine 
Roundtable on Environmental Health Sciences, and chair of the 
IOM Gulf War and health study. She'll testify about the 
research and programmatic priorities of the NIEHS.
    Dr. Goldman, thank you. You may proceed.

                  STATEMENT OF LYNN R. GOLDMAN

    Dr. Goldman. Thank you very much, Mr. Chairman, Mr. Issa, 
members of the committee. It is my honor to testify about the 
National Institute of Environmental Health Sciences. I will put 
my full written testimony in the record with your consent.
    As vice chair of the Roundtable on Environmental Health 
Sciences, Research and Medicine, I know that environmental 
protection needs to be informed by environmental health science 
and by the best science possible. And by environmental health I 
mean a very broad view of environmental health that encompasses 
the built environment, including places where we work. That 
encompasses the natural as well as the social environment. All 
of these are important to promoting our health.
    We know that the stakes are very high. We know that the 
cost of regulation is very high. We also know that the cost of 
environmentally related diseases are very high, and therefore 
it is important that we have a sound basis for science on which 
to make decisions.
    The NIEHS is the preeminent institution within our 
government that does provide that science. It is the global 
center for toxicological research. And I think I can associate 
myself with the comments that Dr. Lucier made about its journal 
Environmental Health Perspectives and about the work of the 
National Toxicology Program.
    When I was at the EPA for 2 years, I chaired the Executive 
Board for the National Toxicology Program, and unique in my 
experience in government was the way that the NTP coordinates 
among the agencies in Health and Human Services to make sure 
that they are working together to assess toxic chemicals, as 
well as bringing on board EPA, CPSC, OSHA, the regulatory 
agencies, so that people are working together, sharing the 
science, sharing the assessments.
    NIEHS research has been so important not only in terms of 
diseases like cancer and respiratory diseases related to the 
environment, but also impacts that are more subtle, impacts on 
development of the brain, immune system, endocrine system that 
affect populations, perhaps don't cause disease, but perhaps 
are very important in terms of public health.
    In the area of children's health, along with EPA, NIEHS 
established the Centers of Excellence for Children's 
Environmental Health Research. These have been very important. 
It also participated in efforts to establish the National 
Children's Study, but unfortunately these efforts have had 
reduced support over the last few years.
    NTP also has had reduced support, I think, in terms of 
fewer starts; but on the other hand, one thing that's a good 
thing that has been happening is that the NIEHS has been 
supporting research so that we develop a better understanding 
of the mechanisms that are involved in the toxic action of 
agents. This is very important for doing better assessments of 
risk, doing better epidemiology and so forth.
    So I think that Congress may have put some expectations on 
the NIEHS to show tangible results that may have resulted in 
the strategic plan that was issued in 2006. I thought that the 
process of developing the strategic plan was a very open 
process and involved the community of people in environmental 
health. However, there were some puzzling aspects, and one in 
particular was the idea of expanding the role of clinical 
research in environmental health.
    We all would like to improve the way treatment is done at 
the bedside. As a pediatrician I care about that terribly, but 
that is not what the NIEHS has been known for. NIEHS has tended 
to make its impact at other levels, translation of research to 
policy, to action of communities, to things that in some 
instances are at a neighborhood level that can make an enormous 
difference for health.
    I think the role of the NIEHS is very important today. Just 
to name a few things, in a university such as mine, the NIEHS 
provides the bulk of the support for the cutting-edge research 
and environment health that we do, but it also enables us to 
train the next generation of scientists. These scientists are 
not only needed in the university, they are needed for 
government, for industry, across society.
    You heard about the Environmental Health Perspectives and 
the role in providing judgment on chemical hazards, obviously 
improving actions for the public's health.
    The path forward, though, is not a simple one. There are 
enormous challenges for the NIEHS as it moves forward in the 
future. There are thousands of chemicals that are in commerce, 
and despite the wonderful approaches that have been developed 
in the 2-year bioassay and other assays, those approaches are 
no way robust enough to face up to the challenge that we have 
with all of the things that we need to be able to look at. So 
the NIEHS does need to have some balance. It needs to balance 
its traditional mission and responsibilities with a need to be 
creative and a need to innovate and push forward the leading 
active environmental science.
    Thank you again.
    Mr. Issa [presiding]. Thank you.
    [The prepared statement of Dr. Goldman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. And now we go to Ms. Peggy Shepard. I will do my 
best to be fair to your background as executive director and 
cofounder of We Act for Environmental Justice, founded in 
1988--you're not old enough to have been there then. Are you 
one of the founders?
    Ms. Shepard. Yes, I am.
    Mr. Kucinich. Congratulations.
    In West Harlem, We Act works to build community power, to 
improve environmental health policy and protection in 
communities of color. She is the recipient of the 10th annual 
Heinz Award for the Environment, and the Dean's Distinguished 
Award from Columbia School of Public Health in 2004.
    We Act is a nationally recognized organization in the field 
of community-based participatory research in partnership with 
the Mailman School of Public Health at Columbia University.
    She is a member of the National Children's Study Federation 
Advisory Committee to the National Institutes of Health. Ms. 
Shepard serves as guest editor for EHP, which we've already 
established is a tremendous magazine and periodical that we 
intend as a body up here on a bipartisan basis to continue to 
support.
    And with that, we look forward to your testimony.

                 STATEMENT OF PEGGY M. SHEPARD

    Ms. Shepard. Thank you. Good afternoon, Chair and committee 
members. I'm Peggy Shepard, cofounder and executive director of 
We Act for Environmental Justice.
    I've had the opportunity in the past to serve as Chair of 
the National Environmental Justice Advisory Committee to the 
EPA and as a member of the NIEHS Advisory Council. Currently 
I'm a member of the NIEHS Public Interest Liaison Group.
    When I first began organizing around the disproportionate 
impact of pollution on my community in northern Manhattan, I 
recognized that the lack of scientific literacy, information, 
data and context was and is a serious void that contributes to 
the systemic exclusion of communities of color and low income 
from decisionmaking that affects their families and their 
communities.
    Evidence-based campaigns move policymakers and empower 
residents. Science and technology are important tools that can 
impact on our ability to develop safe, sustainable communities. 
To achieve these aims, we had to begin a process of inquiry 
that led to collaborative research projects over the last 12 
years with research centers at the Columbia Mailman School of 
Public Health.
    We've had a total of 10 years of these partnership grants 
that have allowed us and other partnerships nationally to 
develop capacity. As a result of these partnership programs, 
there is policy and system change with all levels of 
government, academic institutions and community groups who want 
to work with us. And importantly, we are having impact on the 
field through our trainings, findings, publications, policy 
changes, new models of action and the new perception that it 
can be beneficial to work with affected communities.
    Three years ago the Kellogg Foundation identified the We 
Act-Columbia partnership as one of 10 community-based 
participatory research projects that document the impact of 
CBPR on health policy. In a peer-reviewed article published 
last January in the Journal of Urban Health, the authors found 
the carefully designed CBPR that is committed to strong 
science, high-level community involvement, engagement in policy 
steps and activities, and the strategic use of study findings 
to help impact policy can be an important part of the broader 
struggle for urban health and environmental justice.
    Conversion of New York City's buses to clean diesel and 
installation by the EPA of permanent of air monitoring in 
Harlem and other hot spots were among outcomes for which the 
partnership's research and policy work was given substantial 
credit.
    The effects of Dr. Schwartz's new research direction have 
certainly being chilling. We know that the NIEHS has been the 
source of key information regarding the health impacts of 
pollution. The information that generates in its research is 
used daily in setting protective Federal, State and local 
policies; in arguing for the protection of children, the 
elderly and our communities.
    Though the NIEHS strategic plan states that they are 
committed to research on populations that are exposed to high 
levels of environmental agents; however, it appears that the 
Director has cut funding for CBPR and environmental justice 
partnerships, all of those programs. It has made community 
partnerships optional with the research centers, like the 
children's centers that have been so effective.
    Prevention and environmental intervention represent the 
most effective and efficient ways to improve human health, and 
this core principle should not be lost in favor of technical, 
individually oriented medical solutions.
    To answer the question of why some communities are more 
affected by some disease, NIEHS must continue to assess the 
degree to which environmental exposures disproportionately 
impact specific communities, to understand the effects of 
multiple and cumulative exposures, and ultimately what types of 
intervention will effectively reduce those disparities in 
health burdens.
    At one point the NIEHS had begun to look at the built 
environment as a key environmental exposure that merited 
further investment. We would hope that they would further 
consider that relationship between urban, suburban and rural 
built environments and their relationship to obesity, 
respiratory health and cardiovascular health.
    In addition, the NIEHS should continue training and 
research programs that educate researchers and communities on 
ethical issues associated with environmental health research.
    The Children's Environmental Health Centers Program has 
catalyzed development of the new subspecialty of environmental 
pediatrics and has provided an evidence base for a solid 
children's environmental health and place-based advocacy 
movement here and abroad, yet they recommended a cut in funding 
and a radical change in the funding mechanism for the centers. 
And rather than seek innovative opportunities to translate 
these developments in lab science to the community and to 
field-test them, the NIEHS proposes a retreat to the lab.
    Review panels and study sections of the EJ, CBPR, and 
children's centers research programs need to embody a broader 
range of perspectives that include senior scientists from the 
fields of pediatrics, public health, preventive medicine, as 
well as public interest advocates of environmental justice, 
CBPR, and public health.
    And finally, the translation begins at home. The NIEHS 
peer-reviewed journal EHP, which has a solid scientific 
constituency, needs to continue to create accessible and user-
friendly environmental health resources and references for the 
media and other lay consumers. They must continue to make EHP 
accessible in terms of cost and its lay language reports and 
news articles to the public, which in turn will bolster public 
support for the NIEHS.
    I thank you for the opportunity to share with you the 
significant public impact that NIEHS has had in the past and I 
hope will continue to have. I would like to urge this committee 
to ensure their commitment to these remarkable and unparalleled 
programs, to restore the Environmental Justice and CBPR 
research programs at 2005 levels, to designate staff to 
participate and lead Federal interagency EJ and CBPR efforts, 
and to invite community representatives to engage in the 
strategic planning process.
    The NIEHS has had a legacy of responding effectively to 
identified research needs of the most vulnerable. I hope it 
will return to that legacy and to improving the health of this 
Nation's residents.
    Thank you, and you will have my full testimony.
    Mr. Kucinich [presiding]. Thank you for your testimony.
    [The prepared statement of Ms. Shepard follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. At this point I would like to introduce Ms. 
Stefani Hines. Ms. Hines is a member of the National Advisory 
Environmental Health Sciences Council. She's a senior 
curriculum and assessment specialist and environmental health 
specialist at the College of Pharmacy, University of New 
Mexico, and the National Advisory Environmental Health Sciences 
Council. She is a congressionally mandated body that advises 
the Secretary of the Department of Health and Human Services, 
the Director of the National Institutes of Health, and the 
Director of the NIEHS in matters relating to the direction of 
research, research support, training and career development 
supported by the NIEHS.
    Membership of the NAEHSC consists of ex officio members and 
18 leaders in the fundamental sciences, medical sciences, 
education and public affairs. One-third of the Council must be 
public members. The Council will release a letter expressing 
concern for the cost of public health as a result of the stated 
NIEHS set of priorities.
    Thank you. Proceed.

                 STATEMENT OF STEFANI D. HINES

    Ms. Hines. Good afternoon, Chairman Kucinich and 
Congressman Issa. It is an honor to be here today to share my 
testimony regarding the scientific direction of the National 
Institute for Environmental Health Sciences. Of course, this is 
a CliffsNotes version of my written testimony. In this 
testimony I describe my personal recollection of an 
understanding of the position and opinions of the National 
Advisory Environmental Health Sciences Council, which is the 
advisory council for NIEHS.
    I'd actually like to note that we have two Council members 
with us today, Dr. Joe Graziano and Lisa Greenhill.
    Mr. Kucinich. Thank you for being here.
    Ms. Hines. Although I am a member of the Council, I need to 
clearly state that I am testifying as an individual, and that I 
am not speaking in any formal capacity on behalf of Council.
    With that said, I would like to inform you that the Council 
is currently drafting a letter to Dr. Zerhouni, the Director of 
NIH, to clarify its view on the new NIEHS 2006-2011 strategic 
plan. Because the letter is still under discussion and subject 
to change, I cannot reveal its exact content, but I can share 
my recollection of the issues, comments and sentiments 
expressed by Council.
    It's my understanding that the goal of the letter to Dr. 
Zerhouni is to underscore the importance of NIEHS's unique 
mission to advance environmental health-related research, as 
well as to emphasize the Council support of the new disease-
oriented vision of the NIEHS. This is a vision that is 
inclusive of multiple research tools and approaches, including 
mechanistic research, prevention-based research, clinical 
trials, population studies, and the communication of NIEHS 
research for public benefit.
    As I recall from various Council conversation, Council has 
two main reasons for supporting an integrated disease-oriented 
research approach. One is to stimulate out-of-the-box thinking, 
hopefully generating new, and unique, and potentially 
significant research results. The other hypothesizes that a 
disease-oriented approach would bring environmental health 
research out of the sidelines where it consists only of testing 
chemicals for toxicity into a more mainstream rule where 
research would investigate how environmental agents contribute 
to specific diseases that impact public health on a large 
scale.
    Thus the support of disease-oriented environmental health 
research does not exclude support of the more historic and the 
traditional methods that have been used, including testing 
chemicals for toxicity, the valuable role of NTP and other 
research. Indeed, these toxic chemicals may be contributing to 
major diseases in significant ways. But I would like to make a 
distinction between a vision or a concept and an implementation 
of that concept. Although Council has expressed general support 
for the strategic plan, three Council members, Lisa, Hilary 
Carpenter and myself, have expressed concerns about the erosion 
of disease-prevention educational activities in the NIEHS 
portfolio. The strategic plan makes provisions for those 
activities, but the reality is that outreach and education 
programs, for example, and other things that it paints have 
been eliminated, so it is not implemented in the way that--what 
is said.
    To conclude this part of my testimony, the Council 
recognizes it is important in an advisory role to NIEHS. We 
have an incredible group of minds and a diversity of experience 
on this Council that really could be utilized more than it is. 
Thus Council has identified several ways it can strengthen its 
advisory role within NIEHS.
    The Council is currently assembling a formal list of 
requests for NIEHS, including requesting specific information 
similar to what was provided here, so it will be very helpful 
for us, and also requesting some procedural changes such as 
having Council provide inquiry on the time allocation, the 
content of meeting agendas, and to allow for our questions and 
in-depth discussions.
    The letter to Dr. Zerhouni that I previously mentioned as 
well as this list of Council requests are being written and 
circulated currently among Council members. We anticipate to 
have those completed in the next 2 to 3 weeks.
    I thank you very much for your time and consideration of 
these important matters and for recognizing the value and the 
unique mission of NIEHS. The environment plays a significant 
role in the etiology of disease, in teasing out the nature of 
that role through innovative interdisciplinary research, and 
then providing mechanisms for the communication of that 
information will go a long, long way toward protecting public 
health.
    Mr. Kucinich. Thank you very much for your testimony.
    [The prepared statement of Ms. Hines follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. At this point we're going to go to at least 
one round, if not two, of questions of the witnesses. And we 
thank you for your cooperation.
    You have now heard Dr. Wilson's testimony, and I'm glad 
that Dr. Wilson remains with us. Did Dr. Wilson allay your 
concerns about the research direction and priorities of NIEHS? 
You heard his statement, and you also heard him respond to 
questions. Did he allay your concerns?
    I would just like to start with Dr. Goldman and get a brief 
response from each of the witnesses.
    Dr. Goldman. I should start by saying, and I should have 
said before, that the views I'm expressing are my own and not 
of Johns Hopkins University.
    I was very heartened by what I heard Dr. Wilson say about 
the journal, about the commitment to children's health, 
Environmental Justice community-based participatory research. 
But did it allay my concerns? It did not, because I'm very 
concerned that through this whole process there has been a 
breakdown in morale at NIEHS, and also there has been a 
breakdown in some of the communication with the broader 
environmental health community.
    I know that Dr. Wilson and the other leadership at the 
institute understand this. I think some time and some effort is 
going to be needed to rebuild those bridges and to bring the 
community back together again. And a lot of listening with many 
communities is going to be needed, not just Peggy Shepard's 
community, but many other communities that have been in one way 
or another impacted by this. I really had a sense that things 
could be moving in the right direction. I'm very encouraged.
    Mr. Kucinich. Thank you very much.
    Ms. Shepard.
    Ms. Shepard. Yes. I am very heartened. I know that Mr. 
Wilson helped develop some of these key programs that have been 
so beneficial, and I certainly believe that he's sincere in 
wanting to continue them.
    I'm a little concerned about sort of the fine print. You 
know, I'd like to know that not only will moneys be restored to 
the EJ and CBPR programs, but that new RFAs will continue to be 
published.
    I'd also like to ensure that the funding mechanism for the 
children's centers is not simply the RO1 mechanism, which is a 
problematic mechanism, but that there will continue to be a 
pool of moneys that funds centers.
    Mr. Kucinich. Thank you.
    Ms. Hines.
    Ms. Hines. I, too, am encouraged by what Dr. Wilson had to 
say. I think the--as we have seen, the implementation of action 
is where the rubber hits the road, and the details and how this 
is done, of course, is very important. And citing the 
children's center as an example, restoring funding is part of 
it.
    However, Council expressed concerns about the children's 
center report on the evaluation related to that. Actually the 
evaluation and the summary of it was quite good. It was the 
recommendations that came out of it that there was a real 
disconnect. And if--and so I don't know how supportive Council 
would be if those recommendations were implemented. I think 
that would be a real cost to the center.
    Also I think that the Council can have--play a very 
important role in helping to provide connections to the 
community and provide guidance with respect to prioritization, 
because I don't know that we're going to be able to do 
everything unless funding is increased.
    Mr. Kucinich. Of course. Thank you.
    I would just like to go down the line again and ask this 
question: Are there any programs that have been cut since about 
fiscal year 2005 that are critical to NIEHS's ability to 
protect public health, but that we have not heard about today? 
Anything that we should have covered that we didn't that you'd 
like to make a statement about?
    Dr. Goldman.
    Dr. Goldman. I can't really think of any programs that have 
been eliminated. I think that it might be that it could be a 
good thing to take a careful look at that. I have a sense in 
looking at the charts that you showed that there's been a lot 
of movement of money around from here to there. And even as 
knowledgeable as I am about the NIEHS, I'm having a hard time 
understanding where some of that came from.
    For example, there was coverage in the science press about 
the funding for the NIEHS Director's laboratory. I have 
wondered where did that come from? I did not see that in the 
charts. And so I think it would be--and I suspect that some of 
that may have come from some of intramural activity, some of 
the activities of the NIEHS scientists, and I think it might be 
well worth looking at some of that.
    Mr. Kucinich. Thank you.
    Ms. Shepard, is there anything that has been cut that has 
been critical that we haven't heard about?
    Ms. Shepard. I wouldn't like to address that specifically, 
but I would say that the larger strategic plan that has been 
worked on the last year or so needs to be reassessed. I would 
hope that there would not be a signup by the Council on that 
plan without a strong review and reassessment of new 
directions, as well as where they need to return.
    Mr. Kucinich. Thank you.
    Ms. Hines, do you have anything that you'd like to add to 
that?
    Ms. Hines. I don't--if you define ``critically,'' I don't 
at this point. I would need to take a look at it to be better 
able to----
    Mr. Kucinich. We would like to you stay engaged with us on 
this question as this develops.
    I do want to note as I go to my colleague that it is 
encouraging that Dr. Wilson has stayed in the hearing to listen 
to this testimony. That's--that, I believe, is an encouraging 
sign.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Ms. Hines, I'm--to get a grip on what's happening here, let 
me ask a question that's not intended to be rhetorical. As a 
semi-insider, semi-outsider you may be the best witness to 
answer this.
    The strategic plan that looked good on paper a year ago, 
and you said it quite eloquently so I won't try to repeat it, 
if I see it correctly, that was a great plan assuming that as 
one of the stepchildren of NIH, 1 of 27, the money was there to 
do it. In a nutshell is that the basis under which you say it 
is a great idea, but you didn't tell us what you were going to 
cut to do it if you didn't get money?
    Ms. Hines. I would say that's a fair summary, yes.
    Mr. Issa. And, Dr. Goldman, based on your past experience 
in this ever vast bureaucracy, but looking at NIH and its 27 
separate grants within its own government institutes, shouldn't 
the process that Dr. Schwartz have bought--got buy into been as 
much up for the funding as down for the approval with peers in 
the community? Is that one of the fundamental failures?
    He's not here. I'm hoping the chairman will allow us to 
send written questions or possibly ask the doctor to come in to 
defend himself, but isn't that essentially what this hearing is 
about today? If there were enough money to your cake and eat 
it, too, and I mean that in the best possible sense, we 
wouldn't be having this hearing, because none of the things 
that he wanted to do, as I understand here today, were 
inherently bad. The problem is the sacrifices made in the name 
of doing those other things.
    Dr. Goldman. I think that one of the fundamental rules of 
managing a complex agency like NIEHS, and it is very complex, 
is that you don't want to have any surprises between you and 
those above you. In Congress there needs to be completely open 
communication. And also----
    Mr. Issa. The next administration, if you're in it, I'm 
going to keep those lines, because we only get surprises on the 
Committee on Oversight and Government Reform.
    Dr. Goldman. I know.
    I think the other thing, too, though, is that you can't 
make decisions alone. I've been the head of a large 
governmental agency, and you do have a lot of power, but you 
are not able to make decisions unilaterally; you work together 
with people in a team, and both the team that you're with and 
the agency, the people below you, the people above you, the 
constituencies. And if there's anything that I could point to 
in terms of the implementation, it was, as you would say, 
ideas, bad ideas on paper, great ideas, and more kind of the 
mode of making decisions, of going it alone on issues where you 
really can't be successful if you go it alone.
    Mr. Issa. I appreciate that.
    Ms. Hines, let me ask you to speculate for a moment. Having 
worked with Dr. Schwartz, do you think he had or thought he had 
buy-in from NIH for this reshuffling?
    Ms. Hines. Um, that would be entirely a speculative 
response.
    Mr. Issa. Let me ask you another question. Within the 
National Institutes of Health, many of the programs that--the 
directions he was going, in fact, are covered or could be 
covered by many of the other institutes that make up NIH; is 
that correct?
    Ms. Hines. As long as the health and the environment, the 
environmental health is kept as a primary focus, and all of the 
research and all of the activities, then it is a unique role. 
If you remove the E in the EH, then sure, it could potentially 
be----
    Mr. Issa. Well, the reason I ask, this is the most 
effective place, but for the chairman and myself as we--if the 
chairman would allow a followup hearing, do we need to move 
upstream to the NIH and ask the bigger picture of what is your 
plan to cover what I said, ``cake and eat it, too,'' earlier, 
but to cover two important issues, the areas that Dr. Schwartz 
was anticipating going into and the ones that have historically 
been critical to this organization; is it fair to say that we 
should as an organization of oversight ask is there a plan, 
what is the plan, how would you do it? Would you propose more 
funds for this organization or, in fact, other efficiencies, 
because that seems to be to be one of my questions that's 
unresolved. Nobody here is saying what he wanted to do was bad. 
What we're saying is what he had to cut to do it took him away 
from some core critical items without any way to make it up.
    Ms. Shepard, I wasn't leaving you out, but you are one of 
the core critical items that was being left out, so I take for 
granted that we know you believe it is important, this dais, on 
both sides of the aisle agree that it is important. I'm trying 
to see where we go from here. Your testimony has been very 
compelling to me and to all of us, but we have to figure out do 
we do both, and, if so, where do we get it from what has been a 
growing pot of money?
    NIEHS has not been starved by anyone's definition, but the 
question is how did this happen? Is there a management problem 
not just at this one institute, but at the bigger NIH?
    If anyone has any comments, I obviously yield back. I've 
expired my time.
    Ms. Hines. Well, I think that there are some partnerships 
that are occurring between NIEHS and some of the other 
institutes at NIH, and that seems to be one mechanism for sort 
of leveraging some of the kind of research.
    As far as the question you're asking is important, and it 
really is beyond my individual ability just to say it, to 
provide an adequate answer other than I think that Council 
with--can provide--can be one resource to help think through 
these things.
    Mr. Issa. Yes, Dr. Goldman.
    Dr. Goldman. I think what Dr. Wilson said in his testimony 
suggested one strategy; which is, that over the last few years 
I have been very well aware--and most of the community have--
the NIEHS has been undertaking some fairly large investments in 
new infrastructure related to newer technologies with genomics 
and so forth.
    That might be a place where, once those investments are in 
place, the infrastructure is in place, there might be revenues 
freed up for it.
    But the reality is, of course--and if scientists have a lot 
of good ideas, there will always be more good ideas than there 
is money. So it will always have to be painful to students 
about what things are funded and what aren't funded. Everything 
doesn't get funded. That is just a reality.
    But, again, it gets back, then, to how do you do that; how 
do you do that so that you have the support of the people you 
work with, the community, Congress and all of that? I think 
that, again, is the problem.
    Mr. Issa. Thank you.
    Mr. Chairman, if I can ask unanimous consent for my team to 
put together some followup questions directed through Dr. 
Wilson, but in an attempt to get answers, so that we can 
consider on a bipartisan basis whether to hold a followup 
hearing that might involve more of NIH.
    Mr. Kucinich. I am certainly interested in working with you 
on this, so if our staffs could collaborate on this and come up 
with some agreement as to how we proceed, I would like to do 
that.
    Mr. Issa. I look forward to that, Mr. Chairman.
    Of course, we have Dr. Wilson still here, so he could agree 
to take the questions right now.
    Mr. Kucinich. I think Dr. Wilson has acquitted himself well 
today, and he should rest on his first testimony and see if we 
can progress from there.
    I would like to just have a brief second round, if we may, 
and to begin with asking Ms. Hines, you mentioned inaccuracies 
in the minutes of the council meeting, but you didn't address 
the reason for that.
    Why do you think the inaccuracies occurred? Is there is any 
reason to think management was altering meeting minutes or 
reporting them inaccurately? They just happened to be 
inaccurate? What do you think happened?
    Ms. Hines. I don't know. I really am hesitant to speculate 
on that. I think that sometimes there can be errors in just 
omission, or perhaps misunderstanding of what is communicated, 
or emphasizing one small piece of it. I do think that it is 
important that the minutes accurately reflect what took place 
at a council meeting, because it is a public record. If the 
minutes are going to be referred to in the future some way--for 
example, the children's study. That section on the children's 
study and our discussion related to that was something you 
can't adequately capture the sentiment of council related to 
the recommendations of the review. So should somebody come back 
to those minutes and say, well, what did council think of it, 
it just was not a fair representation of what council said.
    Mr. Kucinich. We in the Congress occasionally have a moment 
where we will actually vote on approval of the journal. We take 
this very seriously. It is this issue of minutes.
    So I would hope that the council and others who are 
involved in meeting processes would understand that this 
Chair--and I would ask the ranking member if he would weigh in 
on this--that we feel very strongly about the accuracy of 
minutes, because there is a point at which it does have legal 
bearing and there is legal responsibility taken. If someone at 
some point deliberately changes the minutes of the meeting or 
misreports them, there are legal consequences. In the interests 
of maintaining the kind of felicity with which this committee 
is proceeding, it would be good, I think, for people to take 
note of that.
    Mr. Issa, would you like to add?
    Mr. Issa. I couldn't agree more with the chairman. To make 
the matter even more so, often, when we get done passing laws, 
people look to our debate to figure out what they meant. We 
would hope that it not be so, but it has been so since the 
beginning of our Founding Fathers where they read the 
Federalist papers to figure out what the Constitution meant.
    So I think it is important. Words do matter. We would hope 
that it would be accurate and that it be sustained by all 
Members.
    Mr. Kucinich. I want to thank my colleague.
    I just have one final question of Dr. Goldman. It has been 
said that small clinical research studies, like those proposed 
in the children's center and elsewhere in the institute under 
Dr. Schwartz, will not give us enough quantitative information 
that is necessary to create reduced exposure standards for the 
general public.
    What is your opinion on that?
    Dr. Goldman. I think it is very difficult to make that kind 
of a generalization.
    Mr. Kucinich. Could you refine it, then?
    Dr. Goldman. I will refine it. I think there are certain 
situations under which clinical studies have been appropriate 
and they have been helpful. But many environmental exposures 
you would never learn about by doing small clinical studies. I 
think where you might have more to gain is, for example, some 
of the studies that have been done, people who have asthma, 
that is triggered by very low levels of pollutants. Small 
clinical studies can tell you how that happens.
    One of the questions I had was why it was necessary to 
invest so much in that particular initiative at this time at 
the NIEHS, and, for a couple of reasons. One is that within 
RTP, there is a clinical research center that is run by the EPA 
at their lab that I have been through, and very little research 
was occurring. I always wondered whether or not there would 
have been an opportunity to share in that resource, why a new 
test lab needed to be developed.
    There was also a clinical research facility at NIH in 
Bethesda, and what was wrong with that? I never really 
understood why a new center needed to be built, especially in a 
location that is in a hospital within a hospital. I would never 
doubt that under some circumstances these small clinical 
studies can provide us with some valuable information, but I 
don't have a perception that we have a lack of capacity of 
places to perform them.
    Mr. Kucinich. I would just like to make this final comment 
and then turn it over to Mr. Issa for a closing round of 
questions, if he so desires, and that is that this hearing 
inevitably reflects on the philosophy of research. The way in 
which research is conducted depends on philosophical questions 
and also the manner of research. Do you proceed inductively or 
deductively? Is the research longitudinal, is it quantitative 
or qualitative, or a merger of both?
    These reflect on some of the questions that are raised 
here. And while I don't think this committee has any interest 
in pointing people in the direction of how they should do their 
research, because it is kind of outside the scope of this, we 
certainly want to make sure that the research that is done can 
hold up to a peer review.
    I just wanted to offer that for your consideration and for 
the good doctor's consideration as to this committee's concern 
that we not exclude a certain body of research that would then 
change the findings; for example, the effect of certain types 
of pollutants on public health.
    Mr. Issa.
    Mr. Issa. Mr. Chairman, I don't have any further questions.
    I would close, though, in thanking the witnesses, both 
first and second panel. I found this to be very informative. 
Like often happens with our committee, though, it has opened 
more questions than it has answered. I think, Dr. Goldman, we 
talked beforehand, just a little bit about how nice it was to 
hold a hearing for this important organization.
    At the end of it, I can't say that we can't look at 27 
institutes. What we can do, I believe, is use this as a 
springboard to look at NIH and whether or not each institute is 
treated as a CEO, autonomous--in which case Dr. Schwartz's buy-
in and direction probably was within his purview--and, if, in 
fact, there has to be coordination, leveraging, real 
collaborative efforts, which there are some, obviously, but it 
has to be part of the culture of the NIH. And they have to 
promote it with 27 pockets of money plus some other grants.
    It sounds like that may be the question for this committee 
that really can delve into whether or not NIH has the plan to 
leverage, as Ms. Hines and others have said; and, Dr. Goldman, 
you said it too. You have been to these other facilities, you 
have seen these other capabilities. And leveraging, and a plan 
to leverage them can't be from the division vice president of 
this entity, it has to come from the overall NIH down, in a way 
that encourages all those segments to work together and, of 
course, rewards them in their funding for leveraging 
technology.
    So I would hope that is the message that we close with 
today, and I look forward to working with the chairman on this 
important issue.
    Mr. Kucinich. I thank the gentleman from California for his 
cooperation. When we cooperate from this chair, it really has 
the ability to create new policies or to strengthen one that 
needs to be strengthened.
    On behalf of the committee, we thank the witnesses and 
everyone in the audience who stayed with us during the course 
of this hearing. We ask you to be available for an exchange of 
questions from the committee.
    If there is no further business before this committee, this 
committee, Subcommittee on Domestic Policy, stands adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
